Report No. D-2009-050                February 5, 2009




Distribution of Funds and the Validity of Obligations
 for the Management of the Afghanistan Security
                Forces Fund Phase II
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can
also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFCEE                         Air Force Center for Engineering and the Environment
ANA                           Afghan National Army
ANP                           Afghan National Police
ASF                           Afghan Security Forces
CECOM                         Communications-Electronics Command
CSTC-A                        Combined Security Transition Command-Afghanistan
DSCA                          Defense Security Cooperation Agency
FMR                           Financial Management Regulation
FMS                           Foreign Military Sales
GAO                           Government Accountability Office
IG                            Inspector General
JMC                           Joint Munitions Command
LOA                           Letter of Offer and Acceptance
MIPR                          Military Interdepartmental Purchase Request
TACOM LCMC                    TACOM Life Cycle Management Command
USACE                         U.S. Army Corps of Engineers
USASAC-NC                     U.S. Army Security Assistance Command-New Cumberland
U.S.C.                        United States Code
USCENTCOM                     U.S. Central Command
                                    INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DAIVE
                               ARLINGTON, VIRGINIA 22202-4704


                                                                                  February 5, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/DoD CHIEF FINANCIAL OFFICER
              COMMANDER, U.S. CENTRAL COMMAND
              ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Distribution of Funds and the Validity of Obligations for the Management of the
         Afghanistan Security Forces Fund Phase II (Report No. D-2009-050)

We are providing this report for your information and usc. No written response to this report was
required. and none was received. Therefore, we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8863 (DSN 664-8863). If you desire, we will provide a fonnal briefing on the results.


                                               '~
                                            jJ}/1l<.1.i x1 , i\~
                                             D~nald A. 810   mer
                                             Director
                                             Joint and Overseas Operations
Report No. D-2009-050 (Project No. D2007-D000LQ-0161.001)                      February 5, 2009


              Results in Brief: Distribution of Funds and
              the Validity of Obligations for the
              Management of the Afghanistan Security
              Forces Fund Phase II


What We Did
We determined whether DoD obligated
$1.3 billion from the Afghanistan Security
Forces Fund in accordance with legal provisions
for assisting the Afghan Security Forces and
with appropriations law.

What We Found
We validated that DoD obligated $1.3 billion in
accordance with legal provisions to assist the
Afghan Security Forces included in Public Laws
109-13, 109-234, and 109-289. These three
public laws make funds available to the
Secretary of Defense or the Secretary’s designee              Afghan National Army
(currently, the Combined Security Transition           Soldiers Perform Training Exercises
                                                                (Photo Courtesy CSTC-A)
Command-Afghanistan [CSTC-A]) to provide
equipment, services, construction, and other
assistance to the Afghan National Army and the
Afghan National Police, the two forces that
form the Afghan Security Forces. Six DoD
commands obligated the $1.3 billion primarily
using contracts with commercial vendors or
military interdepartmental purchase requests
that complied with appropriations law.

What We Recommend
We are making no recommendations.

Client Comments
No written response to this report was required,
and none was received. Therefore, we are                    Afghan National Police
publishing this report in final form.                     Members Distribute Supplies
                                                                (Photo Courtesy CSTC-A)




                                                   i
Report No. D-2009-050 (Project No. D2007-D000LQ-0161.001)       February 5, 2009

Recommendations Table
Client                                         Recommendations Requiring Comment
                                               None




                                          ii
Table of Contents

Results in Brief                                                               i

Introduction                                                                   1

       Objectives                                                              1
       Background                                                              1
       Review of Internal Controls                                             3

Finding. Validity of Obligations Using the Afghanistan Security Forces Fund    5

Appendices

       A. Scope and Methodology                                               13
              Prior Coverage                                                  14
       B. Obligations Guidance                                                15
       C. Military Interdepartmental Purchase Requests                        19
Introduction
Objectives
Our objective was to determine whether DoD obligated the Afghanistan Security Forces
(ASF) Fund in accordance with legal provisions for assisting the ASF and with applicable
appropriations law. See Appendix A for a discussion of the scope, methodology, and
prior audit coverage.

Background
This report provides our results on the second phase of a three-phase audit of the ASF
Fund. As of June 30, 2008, about $15.3 billion had been appropriated for the fund
through six public laws 1 : Public Laws 109-13, 109-234, 109-289, 110-28, 110-161, and
110-252. For this audit, we reviewed obligations made using funds provided by three of
these public laws 2 (Public Laws 109-13, 109-234, and 109-289) that together
appropriated $4.7 billion to the ASF Fund.

In the first phase of our audit [discussed in DoD Inspector General (IG) Report
No. D-2008-012, “Distribution of Funds and the Validity of Obligations for the
Management of the Afghanistan Security Forces Fund – Phase I,” November 5, 2007],
we determined that DoD distributed $4.7 billion of budget authority appropriated by
Public Laws 109-13, 109-234, and 109-289 for the ASF Fund in compliance with
provisions of the three public laws and appropriations law. Specifically, we compared
amounts appropriated in each public law with the budget authority apportioned by the
Office of Management and Budget. We then traced these amounts through DoD. The
Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer distributed
appropriated amounts to the Office of the Assistant Secretary of the Army for Financial
Management and Comptroller (the Army Comptroller) using funding-release
memoranda. The Army Comptroller then issued funding authorization documents to the
Defense Security Cooperation Agency (DSCA). With this funding authority, DSCA
could commit, obligate, expend, and distribute financial resources.

For phase three, we plan to issue multiple reports that will address the accountability of
weapons, real property construction, vehicles, and communication equipment provided to
support the ASF.




1
  The six public laws are: Public Law 109-13, “Emergency Supplemental Appropriations Act for Defense,
the Global War on Terror, and Tsunami Relief, 2005”; Public Law 109-234, “Emergency Supplemental
Appropriations Act for Defense, the Global War on Terror, and Hurricane Recovery, 2006”; Public
Law 109-289, “Department of Defense Appropriations Act, 2007”; Public Law 110-28: “U.S. Troop
Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability Appropriations Act, 2007”; Public
Law 110-161, “Consolidated Appropriations Act, 2008”; and Public Law 110-252, “Supplemental
Appropriations Act, 2008.”
2
  For the second phase, we reviewed the same three public laws as the first phase to maintain consistency.


                                                     1
ASF Support
U.S. Central Command (USCENTCOM) is responsible for working to promote regional
development and cooperation among nations in Southwest Asia. Afghanistan is within
the USCENTCOM area of responsibility. USCENTCOM, through its subordinate
command, Combined Security Transition Command-Afghanistan (CSTC-A), is working
with the government of Afghanistan to build up the two components of the ASF, the
Afghan National Army (ANA) and the Afghan National Police (ANP). The CSTC-A
mission, in partnership with the Islamic Republic of Afghanistan, is to plan, program and
implement organizational, institutional and management reforms of the ASF “in order to
develop a stable Afghanistan, strengthen the rule of law, and deter and defeat terrorism
within its borders.” Current plans call for the ANA to be a light infantry force of up to
80,000 personnel to be fielded by the end of 2009. The ANA personnel will form
15 brigades including artillery, armor, commando, combat support, combat service
support, and an air corps. The target for the ANP is a force of 82,000 personnel capable
of operating countrywide. Approximately 75,000 ANP personnel are already fielded.

Pseudo-Foreign Military Sales Procedures
CSTC-A uses pseudo-Foreign Military Sales (FMS) procedures to support the ASF.
These procedures differ from standard FMS procedures. FMS is a program administered
by DSCA through which eligible foreign governments agree to use their funds to
purchase defense articles, services, and training from the U.S. Government. The
U.S. Government and foreign government sign a letter of offer and acceptance (LOA), or
case, after reaching agreement on the type, cost, and other terms of the requested
assistance. Each case has a unique case identifier for accounting purposes. FMS
procedures for obtaining assistance using the ASF Fund are referred to as “pseudo”
because the U.S. Government is not selling defense items to a foreign customer but
instead to another U.S. Government entity. 3 Preparation of a pseudo-LOA, however,
generally follows FMS procedures. In addition, both FMS and pseudo-FMS procedures
are available for requesting assistance from the Commands and agencies throughout the
DoD FMS community.

The process for obtaining goods and services for the ASF begins when CSTC-A sends a
memorandum of request to DSCA to fund specific assistance. DSCA reviews the request
for consistency with the purpose for which the cited ASF funds were appropriated.
DSCA then assigns the request to a DoD implementing agency. 4 After the implementing


3
  DSCA manages ASF funds after transferring them into the FMS Trust Fund. DSCA then collects an
administrative fee (currently 3.8 percent of the total pseudo-FMS case value) to recover DoD expenses
related to sales negotiations, case implementation, procurement, program control, computer programming,
accounting, and budgeting. The authorization to transfer ASF funds into the FMS Trust Fund and for
DSCA to collect administrative fees is under review in “Funds Appropriated for Afghanistan and Iraq
Processed Through the Foreign Military Sales Trust Fund” (DoD IG Project No. D2007-D000FD-
0198.000).
4
  An implementing agency is the DoD Component assigned responsibility by DSCA to prepare the pseudo-
LOA, establish the case, and provide overall management to ensure delivery of the materials or services set
forth in the pseudo-LOA. The implementing agencies included in our audit were the U.S. Army Security
Assistance Command, the U.S. Army Corps of Engineers, and the Air Force Security Assistance Center.


                                                     2
agency identifies the funding and other requirements to provide the assistance and DSCA
approves the pseudo-LOA, DSCA notifies the Secretary of State. Upon Department of
State agreement, DSCA directs the Defense Financial Accounting Service-Indianapolis to
transfer funds from an ASF Fund appropriation into the FMS Trust Fund for the case. 5
The implementing agency then establishes the case in applicable data systems and issues
instructions for executing the case. Finally, the implementing agency and its subordinate
commands execute the case and obligate ASF funds by awarding contracts to commercial
vendors, obtaining materiel from stock, issuing military interdepartmental purchase
requests (MIPR), or scheduling training. Each DoD command or agency includes a six-
character pseudo-FMS case identifier in each obligating document. The case identifier
indicates the public law providing the ASF funds, the DoD organization implementing
the case, and a unique three-character case designator. For example, the case identifier
“B2-B-AAA” means that the case will use ASF funds from Public Law 109-234 (“B2”)
and that the Army (“B”) will implement the case. The “AAA” distinguishes case B2-B-
AAA from all other Army cases using ASF funds from Public Law 109-234. Figure 1 on
page 4 shows the interactions among organizations within our audit scope that processed
CSTC-A requests for ASF assistance using pseudo-FMS procedures.

Review of Internal Controls
We identified no material internal control weaknesses in the procedures used by DoD to
obligate ASF funds provided by Public Laws 109-13, 109-234, and 109-289.




5
  A case may have many lines to individually track the funding, delivery terms, and other conditions
applicable to several types of goods and services included in the request for assistance. For example, a
request for vehicles could have separate lines for vehicles, spare parts, operator manuals, and other items or
services.


                                                      3
                    Figure 1. ASF Fund Pseudo-FMS Process




Acronyms
USACE AED   U.S. Army Corps of Engineers Afghanistan Engineer District




                                             4
    Finding. Validity of Obligations Using the
    Afghanistan Security Forces Fund
    DoD obligated $1.3 billion in accordance with legal provisions to assist the ASF as found
    in Public Laws 109-13, 109-234, and 109-289. These three public laws make funds
    available to the Secretary of Defense or the Secretary’s designee (currently, CSTC-A) to
    provide equipment, services, construction, and other assistance to the ANA and the ANP,
    the two forces that form the ASF. Six DoD 6 commands obligated the $1.3 billion
    primarily using contracts with commercial vendors or MIPRs that complied with
    appropriations law.

    Public Laws Providing ASF Funds
    Table 1 gives key information on the public laws we reviewed that provided ASF funds.

          Table 1. Public Laws Providing ASF Funds and Included in Audit Scope
Number                                     109-13                             109-234                             109-289
                                Emergency Supplemental              Emergency Supplemental
                                 Appropriations Act for              Appropriations Act for
                                                                                                         Department of Defense
Title                           Defense, the Global War             Defense, the Global War
                                                                                                        Appropriations Act, 2007
                                 on Terror, and Tsunami             on Terror, and Hurricane
                                      Relief, 2005                      Recovery, 2006

Signed                                 May 11, 2005                        June 15, 2006                   September 29, 2006

Availability Ended1                 September 30, 2006                 September 30, 2007                  September 30, 2008

ASF Funds                             $1,285,000,000                      $1,908,133,000                      $1,500,000,000

Funds Obligated2                        $ 916,456,159                     $1,163,323,419                      $1,046,914,243

1
  Funds are available for obligation beginning on the date the public law is signed and ending on the date specified by Congress in each
public law.
2
  Amounts shown are ASF funds obligated, as of June 30, 2007, on open pseudo-FMS cases for goods and services exclusive of indirect
surcharges, DSCA administrative fees, and ASF funds issued to other organizations.


    These public laws provided ASF funds totaling $4.7 billion. Not all of these funds
    provided assistance to the ASF using pseudo-FMS procedures. Congress directed the
    transfer of $290 million of ASF funds from Public Law 109-13 to the Army to reimburse
    it for costs to assist the ASF. As of June 30, 2007, DSCA had issued $437.5 million and
    $7.0 million of ASF funds from Public Laws 109-234 and 109-289, respectively, to the
    Department of State and other organizations to pay for ANA and ANP salaries and



    6
     Air Force Center for Engineering and the Environment, Communications-Electronics Command, Joint
    Munitions Command, TACOM Life Cycle Management Command, U.S. Army Corps of Engineers, and
    U.S. Army Security Assistance Command-New Cumberland.


                                                                   5
training. We did not review ASF funds issued to other organizations; we focused on ASF
funds obligated using pseudo-FMS procedures to acquire assistance for the ASF.

Obligations Reviewed
We reviewed $1.3 billion of the $3.1 billion that DoD had obligated as of June 30, 2007,
using pseudo-FMS procedures. These amounts excluded obligations for indirect
surcharges such as packaging and transportation costs, as well as administrative fees
charged by DSCA. Six DoD commands used 86 documents (contracts, delivery orders,
or MIPRs) to obligate the $1.3 billion in ASF funds shown in Figure 2.

                                                                                        Except for the U.S. Army
                  $600.0
                                                                                        Security Assistance Command-
                                      Public Law 109-289                                New Cumberland
                                      Public Law 109-234
                  $500.0
                                      Public Law 109-13
                                                                                        (USASAC-NC) and the Joint
                                                                                        Munitions Command (JMC),
                  $400.0
                                                                                        the DoD commands in Figure 2
($ in millions)
 Obligations




                  $300.0                                                                obligated ASF funds using
                                                                                        contracts and delivery orders.
                  $200.0
                                                                                        USASAC-NC primarily used
                  $100.0
                                                                                        MIPRs to provide funds for
                                                                                        local procurement of goods and
                    $0.0
                           AFCEE     CECOM        JMC      TACOM   USACE   USASAC-NC
                                                                                        services by CSTC-A personnel
                                                                                        in Kabul, Afghanistan. JMC
                           Figure 2. ASF Funds Obligated by DoD Commands
                                                                                        used MIPRs to acquire
                                                                                        ammunition for the ANA.

Legal Provisions for Assisting the ASF
Public Laws 109-13, 109-234, and 109-289 each contain provisions describing the
assistance approved for the ASF using ASF funds. The provisions among all three
public laws are nearly identical. As an example, the assistance provisions from Public
Law 109-289 are:
                                   Provided, That such funds shall be available to the Secretary of
                                   Defense, notwithstanding any other provision of law, for the purpose of
                                   allowing the Commander, Office of Security Cooperation—
                                   Afghanistan, 7 or the Secretary’s designee, 8 to provide assistance, with
                                   the concurrence of the Secretary of State, to the security forces of
                                   Afghanistan, including the provision of equipment, supplies, services,
                                   training, facility and infrastructure repair, renovation, and construction,
                                   and funding:
                                   Provided further, That the authority to provide assistance under this
                                   heading is in addition to any other authority to provide assistance to
                                   foreign nations . . .


7
  Public Law 109-13 states, “Commander, Combined Forces Command-Afghanistan,” whereas Public
Laws 109-234 and 109-289 state, “Commander, Office of Security Cooperation-Afghanistan.”
8
  Currently, the Secretary’s designee is the Combined Security Transition Command-Afghanistan.


                                                                           6
The Government Accountability Office (GAO), Office of the General Counsel,
Principles of Federal Appropriations Law, Third Edition, volume I, January 2004,
chapter 2, GAO-04-261SP, states that the primary source of information for interpreting
the text of a public law is the conference report supporting it. We compared the
description of the ASF Fund in each of the three public laws with its respective
conference report and found no differences. Accordingly, we used the text of the
assistance provisions of the three public laws to determine whether the obligating
documents we sampled complied with the legal provisions for supporting the ASF.

Financial and Activity Plans
A DoD financial and activity plan provides a link between the text of each public law and
more specific assistance intended with ASF funds. USCENTCOM organizations that
manage ASF funds in Afghanistan initially prepare financial and activity plans for the use
of funds appropriated for the ASF Fund. The plans are prepared for each appropriation
providing ASF funds and changed as the mission in Afghanistan dictates. DoD allocates
funds to three budget activity groups: defense forces (the ANA), interior forces (the
ANP), and detainee operations. DoD further allocates funds within each budget activity
group to four sub-activity groups for equipment and transportation, infrastructure,
sustainment, and training and education. The completed financial and activity plans are
coordinated with various DoD organizations and the Department of State for approval.
The three public laws require Secretary of State agreement with the plans. Table 2 shows
an excerpt from a DoD financial and activity plan dated October 6, 2006, for funds
appropriated through Public Law 109-234 and intended for ANP use.

   Table 2. DoD Financial and Activity Plan for the ANP Budget Activity Group
    Sub-Activity
                                    Planned Use for ASF Funds
      Group
                     To include crowd control equipment, tactical communication, lightweight
                     tactical vehicles, vehicle parts, equipment transportation, computer
   Equipment and
                     workstations, very high frequency (VHF) mobile radios, hardware and
    Transportation
                     software network support, satellite modems, high frequency (HF) base
                     stations


                     To include border police brigade headquarters, border police battalion
   Infrastructure    headquarters, uniform police provincial headquarters, quick reaction police
                     battalion headquarters, regional headquarters, national police command center

                     To include weapons, ammunition, maintenance and minor repairs on
   Sustainment       facilities, medical consumables, vehicle maintenance, salaries, weapons
                     maintenance


                     To include basic police training, tactical training initiative, provincial police
   Training and      training, field police training, criminal investigation training, instructor
    Education        training, tactical driving course training, mentors, operational maintenance
                     expenses for regional training centers and the central training center




                                                  7
We considered the content in DoD financial and activity plans when determining whether
the obligations made with ASF funds complied with the legal provisions to assist the ASF
as stated in Public Laws 109-13, 109-234, and 109-289.

Obligational Authority
DSCA memorandum, “Appropriate Level of Obligational Authority (OA) Control,”
July 20, 1999, states that, at a minimum, obligational authority control of FMS cases
should be maintained at the line level by all parties to the LOA. This guidance also
applies to pseudo-FMS cases. Management of obligational authority at the line level
should help prevent adverse financial conditions as identified in the DoD Financial
Management Regulation (FMR). One type of adverse financial condition occurs when
total obligations exceed obligational authority at case or line levels. The LOA provided
the obligational authority for each of our sample line items.

The Army and Air Force have separate procedures to comply with obligational authority
limits in the LOA. The Army uses its Program Budget Accounting System to establish
obligational authority at the pseudo-FMS case level. We reviewed the obligational
authority for 27 Army sample lines that were part of 14 pseudo-FMS cases. The
27 Army sample lines had 90.9 percent ($1.1 billion) of the total recorded obligations for
the 14 cases as of June 30, 2007. For each of our five Air Force sample lines, the Air
Force Security Assistance Center provided obligation authority to the Air Force Center
for Engineering and the Environment by issuing an Air Force Form 616. This form
provides a not-to-exceed estimate of authority to incur obligations for a specified purpose
and time frame.

We compared the amounts obligated for each sample case line to the amounts of
obligational authority in the LOA, Program Budget Accounting System, and Air Force
Forms 616, as appropriate. We found that the cumulative obligations applicable to each
case line and examined during our review were closely comparable 9 to the obligational
authority in the LOA. In addition, the cumulative obligations examined for the 27 Army
sample lines, as well as each of the 5 Air Force case lines, did not exceed thresholds
established by the Army and Air Force, respectively.




9
 For case Y8-B-ABJ under Public Law 109-13, we found that the total obligations recorded for Line 001
exceeded the LOA obligational authority by about $34 million, an amount equaling the obligational
authority established previously for Line 002. USASAC-NC had recorded all obligations for Y8-B-ABJ
against Line 001. After we informed USASAC-NC of this, DSCA and USASAC-NC immediately
implemented an amendment to the LOA for Y8-B-ABJ to realign the $34 million from Line 002 to
Line 001. USASAC-NC officials explained that administrative error resulted in incorrectly recording the
obligations. We confirmed that the total obligational authority for case Y8-B-ABJ was not exceeded by
comparing the total obligations recorded for case Y8-B-ABJ to the obligational authority established for
Line 001 in the revised LOA, and with the obligational authority shown in the Program Budget Accounting
System for case Y8-B-ABJ. We agree with this corrective action.


                                                   8
Guidance for Obligating Funds
The United States Code (U.S.C.), GAO, and the DoD FMR provide guidance concerning
obligations and the documentary evidence required. See Appendix B for guidance on
obligating Government funds. The U.S.C., Defense Federal Acquisition Regulation
Supplement, and the DoD FMR provide guidance concerning MIPRs. See Appendix C
for the guidance concerning MIPRs.

Light Tactical Vehicles for the ANP
To illustrate our approach for reviewing ASF Fund obligations to acquire equipment, we
describe below our review of obligations for pseudo-FMS case B2-B-AAA, Line 001.

ASF Funds Provided to Order Vehicles
DSCA created the LOA for pseudo-FMS case B2-B-AAA on August 31, 2006, using
ASF funds from Public Law 109-234. Line 001 of the case provided funds of
$54.1 million to acquire 2,325 4-door light tactical vehicles (pickup trucks) for the ANP.
CSTC-A requested two amendments to the LOA (most recently on January 12, 2007) to
increase the ASF funds on Line 001 to $149.4 million to purchase a total of 6,442
vehicles. The obligational authority to reimburse the cost of the vehicles was
$146.9 million while the remaining $2.5 million covered indirect DSCA surcharges.

TACOM Life Cycle Management Command Obligates
the ASF Funds
To acquire the 6,442 vehicles, TACOM Life Cycle Management Command (TACOM
LCMC) awarded four delivery orders under contract W56HZV-06-D-G002 to Global
Fleet Sales, Inc. Table 3 provides details of the four delivery orders.

        Table 3. TACOM LCMC Delivery Orders for Light Tactical Vehicles
                  Awarded Under Contract W56HZV-06-D-G002
      Delivery       Contract Line                          Vehicles        Delivery
                                        Award Date
      Order No.        Item No.                             Ordered       Order Amount
          3            0211AA        September 27, 2006      2,325          $ 53,010,000
          3            0211AB        September 27, 2006         10               228,000
          9            0211AA        November 15, 2006       4,036            92,020,800
         10            0211AA        November 20, 2006           7               159,600
         13            0211AC         February 6, 2007          64             1,459,200
   Total                                                     6,442         $146,877,600

TACOM LCMC properly obligated $146.9 million of ASF funds for the vehicles. In
addition, the vehicles purchased with the delivery orders complied with the legal
provision of Public Law 109-234 to assist the ASF because each delivery order:

   x   was a written, binding agreement with specific terms between two entities
       (TACOM LCMC and Global Fleet Sales, Inc.) that adequately identified the
       vehicles to be purchased;



                                             9
   x   met the legal provisions for providing equipment to the ASF because light tactical
       vehicles are a type of equipment permitted by Public Law 109-234. In addition, a
       DoD Financial and Activity Plan also allowed for the purchase of lightweight
       tactical vehicles. (Refer to the Equipment and Transportation Sub-Activity Group
       in Table 2);

   x   contained the correct citation to obtain ASF funds appropriated under Public
       Law 109-234 and held in the FMS Trust Fund;

   x   was awarded before September 30, 2007, the end of the period of availability for
       Public Law 109-234; and,

   x   included shipping information indicating the vehicles were to be delivered to
       CSTC-A in Kabul, Afghanistan.

The light tactical vehicle purchases were in accordance with the Antideficiency Act that
requires that funds cannot be obligated before the date an appropriation is made or in an
amount that would exceed the total appropriation. Each of the award dates for the
delivery orders in Table 2 falls after June 15, 2006, the date Public Law 109-234 was
signed. The $146.9 million of obligations on B2-B-AAA, Line 001, did not exceed the
amount of obligation authority for the vehicles of $146.9 million.

Public Law 109-234 provided the ASF funds to acquire the 6,442 vehicles. Congress
designated the amount appropriated in the ASF Fund in Public Law 109-234 as an
emergency requirement. In addition, providing the vehicles to the ANP should advance
U.S. National Security goals of helping Afghanistan become stable, democratic, and free
of terrorists. Figure 3 shows some of the 4-door light pickup trucks requested by
CSTC-A, acquired by TACOM LCMC, and awaiting delivery to the ANP.




               Figure 3. Light Tactical Vehicles Prepared for Delivery
                          to the ANP in Kabul, Afghanistan


                                            10
Conclusion
We determined that DoD obligated $1.3 billion in accordance with legal provisions to
assist the ASF as specified in Public Laws 109-13, 109-234, and 109-289. We also found
that the 86 documents that DoD used to obligate the $1.3 billion were acceptable for
obligating the ASF funds and did not violate the Antideficiency Act. The six DoD
commands obligated $1.3 billion to obtain assistance including light tactical vehicles;
upgrades to the Kabul International Airport; design and construction of police
headquarters facilities; purchase of hand-held radios, ammunition, and general transport
trucks; and funds for local procurement. All of these goods and services met the criteria
for assistance approved for the ASF.




                                           11
12
Appendix A. Scope and Methodology
We conducted this performance audit from August 2007 through August 2008, in
accordance with generally accepted government auditing standards except for our review
of MIPRs issued by USASAC-NC as discussed below. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We visited DSCA to understand pseudo-FMS procedures and ASF funds obligated under
Public Laws 109-13, 109-234, and 109-289. We also contacted officials at the
U.S. Army Corps of Engineers (USACE) (including USACE representatives in the U.S.
and Afghanistan), the U.S. Army TACOM LCMC, the U.S. Army Communications-
Electronics Command (CECOM), USASAC-NC, JMC, and the U.S. Air Force Center for
Engineering and the Environment (AFCEE) to obtain the documents they used to obligate
ASF funds related to our sample items.

We examined the ASF Fund descriptions in Public Laws 109-13, 109-234, and 109-289;
conference reports; and financial and activity plans issued by the Under Secretary of
Defense (Comptroller)/DoD Chief Financial Officer to understand the assistance
permitted to the ASF. We reviewed LOAs, obligating documents (contract awards,
delivery orders, and MIPRs), and documents that established obligational authority.

We used the Defense Integrated Financial System to obtain a list of the amount of
obligations recorded for each line of all open and closed pseudo-FMS cases as of June 30,
2007, for Public Laws 109-13, 109-234, and 109-289. Using this list, the Department of
Defense Office of Inspector General Quantitative Methods Directorate provided us with a
statistical sample of 100 pseudo-FMS case lines for review. Due to time and audit
resource constraints, we reviewed a judgmental sample of 32 open case lines (within
16 pseudo-FMS cases) with obligation balances ranging from $5,282 to $151,375,712
and taken from the statistical sample. We selected 27 lines for the Army and 5 for the
Air Force that were executed among 5 Army and 1 Air Force commands. We examined
the LOA for each sampled case to understand the requested assistance and determine the
related obligational authority. We requested each Army and Air Force command
executing line items in our sample to provide the documents (contracts, delivery orders,
or MIPRs) supporting the obligated amounts. Finally, we evaluated the 86 documents
provided to determine whether the documents were prepared in compliance with criteria
in the three public laws, the U.S.C., the DoD FMR, the Defense Federal Acquisition
Regulation Supplement, and policy and regulations issued by DSCA, the Army, and the
Air Force. In total, the 86 documents obligated $1.3 billion of ASF funds.

The audit scope for reviewing MIPRs issued by USASAC-NC was limited to a review of
each MIPR and its acceptance by a DoD acquiring organization such as CSTC-A for
local procurement. We did not review obligating documents issued by the acquiring



                                           13
organizations, including those issued by CSTC-A personnel in Kabul, Afghanistan, for
local procurement items because of time and audit resource constraints.

Use of Computer-Processed Data
We used the Defense Integrated Financial System to obtain the amount of obligations
recorded for each line of all open and closed pseudo-FMS cases as of June 30, 2007, for
Public Laws 109-13, 109-234, and 109-289. We obtained the amount of obligational
authority for Army pseudo-FMS cases from the Program Budget Accounting System.
We did not perform any tests of the reliability of the computer-processed data.

Use of Technical Assistance
Statisticians in the Quantitative Methods Directorate of Policy and Oversight,
Department of Defense Office of Inspector General provided assistance in selecting a
sample of pseudo-FMS case lines for review.

Prior Coverage
During the last 5 years, GAO, the DoD IG, and the Air Force Audit Agency have issued
five reports discussing accountability for goods and services provided to the ASF.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Air Force Audit Agency reports can be accessed at
https://www.afaa.hq.af.mil.

GAO
GAO Report No. GAO-08-661, “Afghanistan Security, Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain
Capable Afghan National Security Forces,” June 2008

GAO Report No. GAO-05-575, “Afghanistan Security: Efforts to Establish Army and
Police Have Made Progress, but Future Plans Need to Be Better Defined,” June 2005

DoD IG
DoD IG Report No. D-2009-031, “Afghanistan Security Forces Fund Phase III-Air Force
Real Property Accountability,” December 29, 2008

DoD IG Report No. D-2008-012, “Distribution of Funds and Validity of Obligations for
the Management of the Afghanistan Security Forces Fund – Phase I,” November 5, 2007

Air Force Audit Agency
Air Force Audit Agency Report No. F2005-0011-FB1000, “Global War on Terrorism
Funds Management,” June 2005




                                           14
Appendix B. Obligations Guidance
Several publications provide guidance concerning obligations, documentary evidence for
obligations, contracts, the Antideficiency Act, and the Bona Fide Needs Rule.

Obligations
The DoD Financial Management Regulation (FMR), volume 1, “Definitions,” December
2001, states that obligations are:
                 Amounts of orders placed, contracts awarded, services received, and
                 similar transactions during an accounting period that will require
                 payment during the same, or a future, period.
The Government Accountability Office (GAO), Office of the General Counsel,
Principles of Federal Appropriations Law, Third Edition, volume II, February 2006,
chapter 7, GAO-06-382SP (Principles), 1 states:
                 . . . because of the immense variety of transactions in which the
                 government is involved, GAO has defined “obligation” only in the
                 most general terms and has instead analyzed on a case-by-case basis the
                 nature of the particular transaction at issue to determine whether an
                 obligation has been incurred. . . . The most one finds in the decisions
                 are general statements referring to an obligation in such terms as “a
                 definite commitment which creates a legal liability of the Government
                 for the payment of appropriated funds for goods and services ordered or
                 received.”

Documentary Evidence for Obligations
Section 1501, title 31, United States Code (31 U.S.C. 1501) (2005), requires documentary
evidence for Government obligations. According to 31 U.S.C. 1501(a)(1)(A) and
31 U.S.C. 1501(a)(1)(B):
                 (a) An amount shall be recorded as an obligation of the United States
                 Government only when supported by documentary evidence of -
                 (1) a binding agreement between an agency and another person
                 (including an agency) that is -
                 (A) in writing, in a way and form, and for a purpose authorized by law;
                 and
                 (B) executed before the end of the period of availability for obligation
                 of the appropriation or fund used for specific goods to be delivered, real
                 property to be bought or leased, or work or service to be provided;




1
 The Comptroller General of the United States, GAO, issues decisions in various areas of Federal law.
GAO prepared the Principles to present a basic reference work covering those areas of law in which the
Comptroller General renders decisions (such as obligations).


                                                    15
DoD FMR, volume 14, chapter 1, “Administrative Control of Appropriations,” October
2002, paragraph 010207, states:
              An amount shall be recorded as an obligation or expenditure when
              incurred as supported by documentary evidence of the occurrence of
              the event.

Contracts
DoD FMR, volume 1, “Definitions,” December 2001, states that contracts are:
              Any enforceable agreement, including rental and lease agreements and
              purchase orders, between an Agency and a business concern for the
              acquisition of property or services.
The Principles states, “An agreement must be legally binding (offer, acceptance, and
consideration made by an authorized official).” As stated in a 1991 decision:
              The primary purpose of [31 U.S.C.] section 1501(a)(1) is to ‘require
              that there be an offer and acceptance imposing liability on both
              parties.’ 39 Comp. Gen. 829, 831 (1960). Hence the government may
              record an obligation under section 1501 only upon evidence that both
              parties to the contract willfully express the intent to be bound.”

Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. 1341) (2006), “Limitations on
Expending and Obligating Amounts,” provides limitations on expending and obligating
funds. According to 31 U.S.C. 1341(a)(1)(B), “An officer or employee of the United
States Government . . . may not:”
              involve either government in a contract or obligation for
              the payment of money before an appropriation is made unless
              authorized by law;

Further, 31 U.S.C. 1342 (2006), “Limitation on Voluntary Services,” states:
              An officer or employee of the United States Government or of the
              District of Columbia government may not accept voluntary services
              for either government or employ personal services exceeding that
              authorized by law except for emergencies involving the safety of
              human life or the protection of property. This section does not
              apply to a corporation getting amounts to make loans (except paid
              in capital amounts) without legal liability of the United States
              Government.      As used in this section, the term "emergencies
              involving the safety of human life or the protection of property"
              does not include ongoing, regular functions of government, the
              suspension of which would not imminently threaten the safety of
              human life or the protection of property.




                                               16
Finally, according to 31 U.S.C. 1517(a) (2006), “Prohibited Obligations and
Expenditures,”

                  An officer or employee of the United States Government or of the
                  District of Columbia government may not make or authorize an
                  expenditure or obligation exceeding -

                  (1) an apportionment; or
                  (2) the amount permitted by regulations prescribed under section
                      1514(a) of this title. 2

Bona Fide Needs Rule
Section 1502(a), title 31, United States Code (31 U.S.C. 1502) (2006), “Balances
Available,” establishes the Bona Fide Needs Rule. According to 31 U.S.C. 1502(a):
                  (a) The balance of an appropriation or fund limited for obligation to a
                  definite period is available only for payment of expenses properly
                  incurred during the period of availability or to complete contracts
                  properly made within that period of availability and obligated
                  consistent with section 1501 of this title. However, the appropriation or
                  fund is not available for expenditure for a period beyond the period
                  otherwise authorized by law.




2
  According to 31 U.S.C. 1514(a): “(a) The official having administrative control of an appropriation
available to the legislative branch, the judicial branch, the United States International Trade Commission,
or the District of Columbia government, and, subject to the approval of the President, the head of each
executive agency (except the Commission) shall prescribe by regulation a system of administrative control
not inconsistent with accounting procedures prescribed under law. The system shall be designed to -
(1) restrict obligations or expenditures from each appropriation to the amount of apportionments or
reapportionments of the appropriation; and
(2) enable the official or the head of the executive agency to fix responsibility for an obligation or
expenditure exceeding an apportionment or reapportionment.”


                                                    17
18
Appendix C. Military Interdepartmental
Purchase Requests
A Military Interdepartmental Purchase Request (MIPR) is an order issued by a DoD
Component to the same or another DoD Component to procure goods, services, or
equipment. A MIPR may be an Economy Act order.

Economy Act Order
Goods and services may be procured from other Federal agencies under the Economy
Act, sections 1535 and 1536, title 31, United States Code, or other statutory authorities.
Section 1535, title 31, United States Code (31 U.S.C. 1535) (2006), provides the legal
authority to procure goods and services from other Federal agencies. According to
31 U.S.C. 1535(a)(1) through 31 U.S.C. 1535(a)(4):
               (a) The head of an agency or major organizational unit within an
               agency may place an order with a major organizational unit within the
               same agency or another agency for goods or services if -
               (1) amounts are available;
               (2) the head of the ordering agency or unit decides the order is in the
               best interest of the United States Government;
               (3) the agency or unit to fill the order is able to provide or get by
               contract the ordered goods or services; and
               (4) the head of the agency decides ordered goods or services cannot be
               provided by contract as conveniently or cheaply by a commercial
               enterprise.
According to 31 U.S.C. 1535(d)(1) and 31 U.S.C. 1535(d)(2):
               (d) An order placed or agreement made under this section obligates an
               appropriation of the ordering agency or unit. The amount obligated is
               deobligated to the extent that the agency or unit filling the order has not
               incurred obligations, before the end of the period of availability of the
               appropriation, in -
               (1) providing goods or services; or
               (2) making an authorized contract with another person to provide the
               requested goods or services.
DoD FMR, volume 11A, chapter 3, “Economy Act Orders,” February 2008,
paragraph 030404, states:
               An Economy Act order obligates the applicable appropriation of the
               requesting agency or unit upon acceptance of the order by the servicing
               agency. The entire amount of a reimbursable order should be obligated
               by the requesting agency when the order is accepted.




                                                   19
Military Interdepartmental Purchase Request
DoD FMR, volume 11A, chapter 3, “Economy Act Orders,” February 2008,
paragraph 030102 and paragraph 030501, state, respectively:

                 Within the Department, an activity within a DoD Component may
                 place an order with another activity within the same DoD Component,
                 another DoD Component or with another federal agency for goods or
                 services.
                 Typically, between DoD Components, a DD Form 448, MIPR is used
                 to place the order. A DD Form 448-1, 1 “Acceptance of MIPR,” is used
                 to show acceptance.

Procedures for Using Military Interdepartmental Purchase
Requests
The Defense Federal Acquisition Regulation Supplement: Procedures, Guidance and
Information, Subpart 208.70, “Coordinated Acquisition,” paragraphs 208.7004-1 and
208.7004-2 (revised July 21, 2008) discuss procedures for using MIPRs.

Requiring departments send their requirements to acquiring departments on a MIPR. The
MIPR is the authority for the acquiring department to acquire the supplies or services on
behalf of the requiring department. The acquiring department is authorized to create
obligations against the funds cited in a MIPR without further referral to the requiring
department.

The acquiring department has no responsibility to determine the validity of a stated
requirement in an approved MIPR, but it should bring apparent errors to the attention of
the requiring department. Changes that affect the contents of the MIPR must be
processed as a MIPR amendment regardless of the status of the MIPR. The requiring
department must submit requirements for additional line items of supplies or services not
provided for in the original MIPR as a new MIPR.

Acquiring departments formally accept a MIPR using an Acceptance of MIPR form and
must accept the MIPRs in writing before the funds expire.

Methods of Funding 2
The Defense Federal Acquisition Regulation Supplement: Procedures, Guidance and
Information, Subpart 208.70, “Coordinated Acquisition,” paragraph 208.7004-2 (revised
July 21, 2008), states:




1
 A DD Form 448-2 is now used to show acceptance of a MIPR.
2
 We did not review the authorization for DSCA to transfer ASF funds into the FMS Trust Fund. This
practice is under review in “Funds Appropriated for Afghanistan and Iraq Processed Through the Foreign
Military Sales Trust Fund” (DoD IG Project No. D2007-D000FD-0198.000).


                                                  20
               The acquiring department in accepting a MIPR will determine whether
               to use Category I (reimbursable funds citation) or Category II (direct
               funds citation) methods of funding.

Category I or Reimbursable Funds Citation Method of Funding
DoD may use the reimbursable funds citation for various purposes including deliveries
from existing inventories or existing contracts of the acquiring department. In this case,
the Acceptance of MIPR form is the authority for the requiring department to record the
obligation of funds.

Category II or Direct Funds Citation Method of Funding
DoD may use the direct funds citation in circumstances other than those applicable to the
reimbursable funds citation and results in citation of the requiring department’s funds and
the MIPR number in the resultant contract. In this case, the conformed copy of the
contract is the authority to record the obligation.




                                                 21
